<html>
<title> - POWERING AMERICA: EXAMINING THE ROLE OF FINANCIAL TRADING IN THE ELECTRICITY MARKETS</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]





 
   POWERING AMERICA: EXAMINING THE ROLE OF FINANCIAL TRADING IN THE 
                          ELECTRICITY MARKETS

=======================================================================

                                HEARING

                               BEFORE THE

                         SUBCOMMITTEE ON ENERGY

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           NOVEMBER 29, 2017

                               __________

                           Serial No. 115-81
                           
                           
                           
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                          
                           
                           


      Printed for the use of the Committee on Energy and Commerce

                        energycommerce.house.gov
                        
                        
                        
                              _________ 

                U.S. GOVERNMENT PUBLISHING OFFICE
                   
 28-604 PDF              WASHINGTON : 2018       
____________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Publishing Office,
Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
  Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001                            
                        


                    COMMITTEE ON ENERGY AND COMMERCE

                          GREG WALDEN, Oregon
                                 Chairman

JOE BARTON, Texas                    FRANK PALLONE, Jr., New Jersey
  Vice Chairman                        Ranking Member
FRED UPTON, Michigan                 BOBBY L. RUSH, Illinois
JOHN SHIMKUS, Illinois               ANNA G. ESHOO, California
MICHAEL C. BURGESS, Texas            ELIOT L. ENGEL, New York
MARSHA BLACKBURN, Tennessee          GENE GREEN, Texas
STEVE SCALISE, Louisiana             DIANA DeGETTE, Colorado
ROBERT E. LATTA, Ohio                MICHAEL F. DOYLE, Pennsylvania
CATHY McMORRIS RODGERS, Washington   JANICE D. SCHAKOWSKY, Illinois
GREGG HARPER, Mississippi            G.K. BUTTERFIELD, North Carolina
LEONARD LANCE, New Jersey            DORIS O. MATSUI, California
BRETT GUTHRIE, Kentucky              KATHY CASTOR, Florida
PETE OLSON, Texas                    JOHN P. SARBANES, Maryland
DAVID B. McKINLEY, West Virginia     JERRY McNERNEY, California
ADAM KINZINGER, Illinois             PETER WELCH, Vermont
H. MORGAN GRIFFITH, Virginia         BEN RAY LUJAN, New Mexico
GUS M. BILIRAKIS, Florida            PAUL TONKO, New York
BILL JOHNSON, Ohio                   YVETTE D. CLARKE, New York
BILLY LONG, Missouri                 DAVID LOEBSACK, Iowa
LARRY BUCSHON, Indiana               KURT SCHRADER, Oregon
BILL FLORES, Texas                   JOSEPH P. KENNEDY, III, 
SUSAN W. BROOKS, Indiana             Massachusetts
MARKWAYNE MULLIN, Oklahoma           TONY CARDENAS, California
RICHARD HUDSON, North Carolina       RAUL RUIZ, California
CHRIS COLLINS, New York              SCOTT H. PETERS, California
KEVIN CRAMER, North Dakota           DEBBIE DINGELL, Michigan
TIM WALBERG, Michigan
MIMI WALTERS, California
RYAN A. COSTELLO, Pennsylvania
EARL L. ``BUDDY'' CARTER, Georgia
JEFF DUNCAN, South Carolina

                                 

                         Subcommittee on Energy

                          FRED UPTON, Michigan
                                 Chairman
PETE OLSON, Texas                    BOBBY L. RUSH, Illinois
  Vice Chairman                        Ranking Member
JOE BARTON, Texas                    JERRY McNERNEY, California
JOHN SHIMKUS, Illinois               SCOTT H. PETERS, California
ROBERT E. LATTA, Ohio                GENE GREEN, Texas
GREGG HARPER, Mississippi            MICHAEL F. DOYLE, Pennsylvania
DAVID B. McKINLEY, West Virginia     KATHY CASTOR, Florida
ADAM KINZINGER, Illinois             JOHN P. SARBANES, Maryland
H. MORGAN GRIFFITH, Virginia         PETER WELCH, Vermont
BILL JOHNSON, Ohio                   PAUL TONKO, New York
BILLY LONG, Missouri                 DAVID LOEBSACK, Iowa
LARRY BUCSHON, Indiana               KURT SCHRADER, Oregon
BILL FLORES, Texas                   JOSEPH P. KENNEDY, III, 
MARKWAYNE MULLIN, Oklahoma               Massachusetts
RICHARD HUDSON, North Carolina       G.K. BUTTERFIELD, North Carolina
KEVIN CRAMER, North Dakota           FRANK PALLONE, Jr., New Jersey (ex 
TIM WALBERG, Michigan                    officio)
GREG WALDEN, Oregon (ex officio)

                                  (ii)
                                  
                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Fred Upton, a Representative in Congress from the State of 
  Michigan, opening statement....................................     1
    Prepared statement...........................................     2
Hon. Bobby L. Rush, a Representative in Congress from the State 
  of Illinois, opening statement.................................     3
Hon. Greg Walden, a Representative in Congress from the State of 
  Oregon, prepared statement.....................................   127
Hon. Frank Pallone, Jr., a Representative in Congress from the 
  State of New Jersey, prepared statement........................   127

                               Witnesses

Wesley Allen, Chief Executive Officer, Red Wolf Energy Trading, 
  on Behalf of Financial Marketers Coalition.....................     5
    Prepared statement...........................................     7
    Answers to submitted questions...............................   131
Eric Hildebrandt, Ph.D., Director, Department of Market 
  Monitoring, California Independent System Operator Corporation.    23
    Prepared statement...........................................    25
    Answers to submitted questions...............................   145
Max J. Minzner, Partner, Jenner & Block, LLP.....................    57
    Prepared statement...........................................    59
    Answers to submitted questions...............................   161
Noha Sidhom, Chief Executive Officer, TPC Energy, LLC, on Behalf 
  of the Power Trading Institute.................................    66
    Prepared statement...........................................    68
    Answers to submitted questions...............................   165
Vincent P. Duane, Senior Vice President, Law, Compliance & 
  External Relations, PJM Interconnection, LLC...................    88
    Prepared statement...........................................    90
    Answers to submitted questions...............................   175
Christopher Moser, Senior Vice President for Operations, NRG 
  Energy, Inc....................................................    97
    Prepared statement...........................................    99
    Answers to submitted questions...............................   183

                           Submitted Material

Letter of November 27, 2017, from Joseph Bowring, Independent 
  Market Monitor for PJM, to Mr. Upton and Mr. Rush, submitted by 
  Mr. Upton......................................................   129


   POWERING AMERICA: EXAMINING THE ROLE OF FINANCIAL TRADING IN THE 
                          ELECTRICITY MARKETS

                              ----------                              


                      WEDNESDAY, NOVEMBER 29, 2017

                  House of Representatives,
                            Subcommittee on Energy,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:17 a.m., in 
room 2322, Rayburn House Office Building, Hon. Fred Upton 
(chairman of the subcommittee) presiding.
    Members present: Representatives Upton, Olson, Barton, 
Shimkus, Harper, McKinley, Griffith, Johnson, Flores, Mullin, 
Hudson, Walberg, Rush, McNerney, Peters, Green, Sarbanes, 
Welch, Tonko, Loebsack, and Schrader.
    Staff present: Samantha Bopp, Staff Assistant; Allie Bury, 
Legislative Clerk, Energy/Environment; Zack Dareshori, 
Legislative Clerk; Wyatt Ellertson, Professional Staff Member, 
Energy/Environment; Jordan Haverly, Policy Coordinator, 
Environment; A.T. Johnston, Senior Policy Advisor, Energy; Mary 
Martin, Chief Counsel, Energy/Environment; Alex Miller, Video 
Production Aide and Press Assistant; Brandon Mooney, Deputy 
Chief Counsel, Energy; Mark Ratner, Policy Coordinator; 
Annelise Rickert, Counsel, Energy; Dan Schneider, Press 
Secretary; Peter Spencer, Senior Professional Staff Member, 
Energy; Jason Stanek, Senior Counsel, Energy; Rick Kessler, 
Minority Senior Advisor and Staff Director, Energy and 
Environment; John Marshall, Minority Policy Coordinator; and 
Alexander Ratner, Minority Policy Analyst.

   OPENING STATEMENT OF HON. FRED UPTON, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MICHIGAN

    Mr. Upton. Good morning, everybody. So, at our last 
Powering America hearing, we examined the important role that 
consumer advocates play in the organized electricity markets. 
Today, our examination of these markets continues as we turn 
our attention to the role of financial market participants, 
both why they trade financial products and the effects that 
their transactions have in the Nation's seven RTO and ISO 
markets.
    With us today are witnesses who have extensive experience 
in trading financial products on behalf of private institutions 
and a major utility. We also have a rep from PJM 
Interconnection, the world's largest wholesale electricity 
market and the market monitor for the California independent 
system operation, so welcome.
    Financial market participants are playing an increasingly 
visible role in the organized wholesale electricity markets. It 
is claimed that financial transactions can improve the 
efficiency of the physical electricity markets by providing 
increased liquidity, mitigating market power, and improving 
price formation.
    In this hearing, I hope that the witnesses will explain 
their perspectives regarding why we have financial trading in 
the organized electricity markets and how this trading affects 
consumers who ultimately pay for electricity services.
    Each of the RTOs and ISOs allow financial trading to occur 
in their markets including PJM and the California ISO. The most 
commonly traded financial products are known as financial 
transmission rights or FTRs and virtual transactions. While 
these products can by used by traditional utilities to hedge 
themselves against volatile price fluctuations, these products 
are also bought and sold by financial traders such as banks, 
investors, and other speculators.
    While financial market participants ultimately trade to 
make a profit, for sure, advocates for trading claim that 
financial transactions strengthen the markets by increasing 
trading volume and liquidity which in turn reduces volatility 
and risk. Financial traders also claim to provide for the needs 
of physical market participants by offering services such as 
customized hedges and various types of options to limit the 
risk.
    However, measuring the overall contribution and benefits of 
financial transactions in the electricity markets are certainly 
difficult. Critics of financial trading argue that both FTRs 
and virtual transactions extract value from the market without 
providing equivalent benefits in return. I also understand the 
FERC is currently reviewing several hotly debated proposals 
which would reduce the opportunities for virtual transactions 
to be used to profit from the market without adding 
commensurate value.
    Not surprisingly, many financial traders are opposed to 
those proposals and as our Powering America series extends into 
next year, we will continue to tackle some of the most complex 
and challenging issues concerning both electricity markets and 
the energy industry. Along those lines today, our job is to 
take a hard look at whether FTR and virtual trading market 
makes sense and answer the question, does financial trading 
make the electricity markets more efficient and in turn result 
in benefits to consumers?
    So with that I yield to the ranking member of the 
subcommittee, my friend from Illinois, Mr. Rush.
    [The prepared statement of Mr. Upton follows:]

                 Prepared statement of Hon. Fred Upton

    Good morning. At our last Powering America hearing, we 
examined the important role that consumer advocates play in the 
organized electricity markets. Today, our examination of these 
markets continues as we turn our attention to the role of 
financial market participants--both why they trade financial 
products and the effects that their transactions have in the 
Nation's seven RTO and ISO markets.
    With us today are witnesses who have extensive experience 
in trading financial products on behalf of private institutions 
and a major utility. We also have a representative from PJM 
Interconnection--the world's largest wholesale 
electricitymarket; and the market monitor for the California 
Independent System Operator. Welcome.
    Financial market participants are playing an increasingly 
visible role in the organized wholesale electricity markets. 
It's claimed that financial transactions can improve the 
efficiency of the physical electricity markets by providing 
increased liquidity, mitigating market power, and improving 
price formation. In this hearing, I hope the witnesses will 
explain their perspectives regarding why we have financial 
trading in the organized electricity markets and how this 
trading affects consumers who ultimately pay for electricity 
services.
    Each of the RTOs and ISOs allow financial trading to occur 
in their markets, including PJM and the California ISO. The 
most commonly traded financial products are known as 
``Financial Transmission Rights'' or ``FTR's'' and ``Virtual 
Transactions.'' While these products can be used by traditional 
utilities to hedge themselves against volatile price 
fluctuations, these products are also bought and sold by 
financial traders such as banks, investors, and other 
speculators.
    While financial market participants ultimately trade to 
make a profit, advocates for trading claim that financial 
transactions strengthen the markets by increasing trading 
volume and liquidity, which in turn reduces volatility and 
risk. Financial traders also claim to provide for the needs of 
the physical market participants by offering services such as 
customized hedges and various types of options to limit risk.
    However, measuring the overall contribution and benefits of 
financial transactions in the electricity markets is difficult. 
Critics of financial trading argue that both FTRs and virtual 
transactions extract value from the markets without providing 
equivalent benefits in return. I also understand that FERC is 
currently reviewing several hotly debated proposals which would 
reduce the opportunities for virtual transactions to be used to 
profit from the market without adding commensurate value. Not 
surprisingly, many financial traders are opposed to these 
proposals.
    As our Powering America series extends into next year, 
we'll continue to tackle some of the most complex and 
challenging issues concerning both the electricity markets and 
the energy industry. Along those lines, today, our job is to 
take a hard look at whether FTR and virtual trading makes sense 
and answer this question: Does financial trading make the 
electricity markets more efficient, and in turn, result in 
benefits to consumers?
    I look forward to the testimony of our witnesses.

    Mr. Upton.
     So with that, I yield to the ranking member of the 
subcommittee, my friend from Illinois, Mr. Rush.

 OPENING STATEMENT OF HON. BOBBY L. RUSH, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF ILLINOIS

    Mr. Rush. Well, thank you, Mr. Chairman. And Mr. Chairman, 
I want to applaud you for holding this important hearing today.
    While we have an opportunity to examine the witnesses 
before us, we will be looking at the role of financial trading 
within the electricity markets. Mr. Chairman, while this may 
appear to be an obscure topic that the American people and even 
members of the subcommittee may not be intimately familiar 
with, it is important to keep in mind that these financial 
trading tools directly impact the cost that consumers pay for 
their electricity.
    In reviewing the testimony for today's hearing, Mr. 
Chairman, there seems to be unanimous agreement that financial 
tools such as FTRs as well as day-ahead forward and real-time 
spot markets play key roles in improving the efficiency of the 
physical electricity market by providing increased liquidity, 
mitigating market power, and decreasing price volatility, all 
of which ultimately benefit America's consumers.
    Additionally, Mr. Chairman, it has been noted that the FTRs 
provide forward pricing that helps gauge the need for 
additional infrastructure investment so that unnecessary 
construction and the subsequent costs associated with 
overbuilding are not passed on to the consumers.
    However, Mr. Chairman, while all of our witnesses agree 
that these financial trading tools are indeed necessary, there 
also seems to be a consensus that some modifications may in 
fact be needed in order to ensure that these markets are 
operating in a way that is transparent, that is open, that is 
fair, and that is competitive. The discrepancy within the 
testimonies center around what reforms might be needed in order 
to adequately achieve these objectives.
    Specifically, Mr. Chairman, I look forward to hearing the 
panelists on two pending reform proposals forwarded by PJM that 
FERC is currently considering regarding the up-to Congestion or 
UTC transactions and how FERC's decision will impact consumers. 
Additionally, I am interested to hear from our panelists on the 
recent DOE notice of proposed rulemaking and whether they 
support or oppose FERC providing additional subsidies to some 
form of generation, coal or nuclear, over and above other 
resources.
    Finally, Mr. Chairman, it can be no surprise that for me 
the most important factor in deciding whether any reforms are 
needed, with the panel, how they might impact consumers. I look 
forward to engaging our witnesses or their ideas for ensuring 
that RTOs and ISOs are first and foremost responsive to the 
needs of the customers.
    Additionally, I want to make sure that FERC has the tools, 
expertise, willingness, and authority to administer these 
financial markets in a way that would be fair, transparent, 
open, and competitive so that consumer interests are in fact 
the guiding principles and the most important priorities of the 
RTOs and the Commission.
    Mr. Chairman, I look forward to this hearing.
    Mr. Upton. Thank you, my friend.
    It is my understanding that two other subcommittees are 
meeting at this same time, so Chairman Walden is going put his 
statement into the record. Are there any Members on our side 
that would like to use part of his 5 minutes?
    Seeing none, is there anyone on your side that needs Mr. 
Pallone's time?
    Mr. Rush. Ranking Member Pallone is also at another 
hearing.
     Mr. Upton. So we will allow those opening statements to go 
in.
    [Mr. Walden's and Mr. Pallone's statements appear at the 
conclusion of the hearing.]
    Mr. Upton. So we will move to the testimony, to our 
distinguished panelists. We are first joined by Wesley Allen, 
the CEO of Red Wolf Energy Trading, on behalf of the Financial 
Marketers Coalition.
    Thank you all in advance for submitting your testimony so 
that we could see it yesterday. And if you would summarize, 
each of you your testimony, in no more than 5 minutes, at which 
point we will do questions from the Members that are here.
    So Mr. Allen, welcome. You are recognized for 5 minutes. 
Thank you.

 STATEMENTS OF WESLEY ALLEN, CHIEF EXECUTIVE OFFICER, RED WOLF 
  ENERGY TRADING, ON BEHALF OF FINANCIAL MARKETERS COALITION; 
    ERIC HILDEBRANDT, PH.D., DIRECTOR, DEPARTMENT OF MARKET 
MONITORING, CALIFORNIA INDEPENDENT SYSTEM OPERATOR CORPORATION; 
  MAX J. MINZNER, PARTNER, JENNER & BLOCK, LLP; NOHA SIDHOM, 
  CHIEF EXECUTIVE OFFICER, TPC ENERGY, LLC, ON BEHALF OF THE 
    POWER TRADING INSTITUTE; VINCENT P. DUANE, SENIOR VICE 
     PRESIDENT, LAW, COMPLIANCE & EXTERNAL RELATIONS, PJM 
   INTERNCONNECTION, LLC; AND CHRISTOPHER MOSER, SENIOR VICE 
           PRESIDENT FOR OPERATIONS, NRG ENERGY, INC.

                   STATEMENT OF WESLEY ALLEN

    Mr. Allen. Good morning, Chairman Upton, Ranking Member 
Rush, and members of the subcommittee. Thank you for inviting 
me to share our opinions of the electricity markets. My name is 
Wesley Allen. I am CEO of Red Wolf Energy Trading, a small 
trading firm headquartered in Raleigh, North Carolina. I am 
representing the Financial Marketers Coalition which is a group 
of similarly situated companies transacting in the ISO/RTO 
markets.
    Red Wolf is a small company. We employ about a dozen 
employees scattered around the United States specializing in 
transacting the ISO/RTO energy markets. First and foremost, we 
support competitive markets. The transactions that we engage in 
clear the ISO day-ahead markets and then settle on the real-
time. While we have been around for about 10 years, the type of 
activity we engage in has been around for longer and started 
when FERC began restructuring the electricity markets in the 
early 2000s.
    The purpose behind restructuring was to add competition and 
liquidity, price transparency, and to shift risk from consumers 
to investors. While the road to the restructuring wasn't always 
smooth, after almost 20 years I believe it has been a success 
although there is room for improvement. The trading we do 
broadly is called virtual trading. Every ISO/RTO in the country 
allows virtual trading with one exception, the western Energy 
Imbalance Market.
    When the FERC was restructuring the electricity markets 
they realized without participation by companies like ours many 
of the goals they were trying to achieve would not be possible. 
One of the goals of restructuring was breaking up natural 
monopolies. Financial participation is the engine that drives 
competition and liquidity in the transparent RTO/ISO markets.
    Specifically, we engage in three types of transactions: an 
increment offer which sells electricity, a decremental bid 
which buys, and, lastly, a more refined ISO/RTO market such as 
ERCOT, a point-to-point transaction which is a basis or spread 
trade that transacts on the congestion between two locations on 
the transmission grid.
    Electricity is uniquely localized, and without 
participation in these markets generation and load-serving 
entities could exercise market power. Generation can exercise 
market power by economically withholding the electricity they 
supply. They could sell less power in the day-ahead but at a 
higher price. Think of what OPEC does in the oil markets.
    But not all generation withholding is nefarious in nature. 
Some is risk management. Contracts awarded in day-ahead are 
financially binding. Some generators may opt not to schedule 
their full output in case the wind doesn't blow or if they 
should have an equipment failure. Likewise, load can do 
something similar by underbidding their load and therefore 
buying most of their needs at a lower day-ahead price, then 
purchasing the remainder in the real-time. In these cases, 
virtual traders such as ourselves are assuming the risk that 
the utilities are unwilling to take.
    The purpose of the day-ahead is to pre-position the markets 
for the needs the next day. Electricity being a high/low class, 
it is necessary not only to commit the right amount of 
generation, but to commit generation in the right location in 
order to have an efficient and reliable market. Given the 
natural monopolies to the market power that would otherwise 
exist, financial participation is critical.
    A great deal of time in today's hearing will be spent on 
the forward markets. While efficient forward markets are 
critical, so is price formation in day-ahead and real-time 
energy markets. If prices are incorrect in the day-ahead and 
real-time, then the wrong signals will be sent to the forward 
markets. The FERC has been working on price formation for some 
time now. The conclusions and improvements they have been 
working towards are going a long way to improve the markets. My 
only regret is it is taking a long time.
    Our participation in these markets has been under attack. 
Some have grown weary of competition and long for the former 
structure. That said, there have been a couple of notable 
electricity economists that through analyzing market outcomes 
have put a dollar figure on the efficiency gained by our 
participation. Dr. Wolak found that our participation in the 
California ISO increased market efficiency in the first year of 
virtual trading by $70 million per year.
    Additionally, Wolak found that by more efficiently 
committing and dispatching resources, our trading, virtual 
trading reduced greenhouse gas emissions by somewhere between 
650- and 537,000 tons annually. Dr. Patton, the independent 
market monitor at MISO, found that at a minimum financial 
market activity added $65 million in increased efficiency.
    While most recognize that virtual trading adds efficiency 
in RTO/ISO markets, more could be achieved. Nearly half of all 
virtual transactions at less refined ISOs are done in a price-
insensitive manner. More refined ISOs allow basis tradings, 
specifically ERCOT. Dr. Patton has been advocating for this 
product at MISO for over 5 years. With implementation scheduled 
for several years from now, we believe these critical changes 
are taking too long.
    In conclusion, virtual traders add efficiency to ISO/RTO 
markets by injecting competition and liquidity that would be 
absent without them. Thank you and I look forward to your 
questions.
    [The prepared statement of Mr. Allen follows:]
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
    
    
    Mr. Upton. Thank you.
    Next, we are joined by Eric Hildebrandt, director of Market 
Monitoring for the California ISO. Welcome.

                 STATEMENT OF ERIC HILDEBRANDT

    Dr. Hildebrandt. Good morning, Congressman. Thank you for 
inviting me today. My name is Eric Hildebrandt, director of 
Market Monitoring at the California ISO. The Department of 
Market Monitoring serves as the independent market monitor for 
the California ISO. The Federal Energy Regulatory Commission 
requires each ISO to have an independent market monitor whose 
mission includes, quote, ``the protection of consumers and 
market participants by the identification and reporting of 
market design flaws and market power abuses.''
    My testimony today highlights a major market design flaw 
that exists in all ISOs which is costing transmission 
ratepayers at least $400 billion per year. This flaw involves 
the auctioning by ISOs of financial instruments called 
financial transmission rights or FTRs. California calls these 
congestion revenue rights or CRRs.
    Ratepayers of load-serving entities pay the full cost of 
the transmission system through transmission access charges and 
also higher prices when congestion occurs. All congestion 
revenues collected by ISOs should therefore be allocated back 
to transmission ratepayers. In fact, FTRs were initially 
developed as a way to fairly allocate congestion revenues back 
to the participants who pay for the transmission system.
    All ISOs currently allocate FTRs to load-serving entities 
based on their projected use of the transmission system. We 
support continued use of FTRs in this way to provide load-
serving entities with a hedge that offsets the congestion costs 
they may incur. However, we believe that all additional 
congestion revenues that remain after settlement of these 
allocated FTRs should also be refunded to transmission 
ratepayers.
    Currently, however, after allocating FTRs to load-serving 
entities, ISOs then auction off additional FTRs. These FTRs are 
essentially price swaps. But unlike price swaps for other 
commodities, FTRs are not cleared and settled based on bids 
from willing buyers and sellers. Instead, ISOs auction off FTRs 
and then pay off these FTRs using congestion revenues that 
would otherwise be refunded to transmission ratepayers.
    Unfortunately, the revenues collected from the auctioned 
FTRs consistently are much lower than what ISOs pay out. This 
makes FTRs highly profitable for financial entities, but these 
profits directly reduce congestion revenues refunded back to 
ratepayers. We estimate ISO ratepayers nationwide are losing at 
least $400 million per year from FTRs sold at auction. Almost 
all of these profits are going to purely financial entities and 
trading companies with a very small portion of FTRs purchased 
as potential hedges against congestion costs.
    In California, ratepayers lost over $680 million since 2009 
or about $75 million a year through the auction. Ratepayers 
receive only 52 cents in the auction for each dollar that the 
ISO pays out to these FTRs. This represents a profit of nearly 
a hundred percent for financial entities purchasing these FTRs.
    In the PJM Interconnection, data indicated ratepayers have 
lost at least $1.2 billion in FTR auctions, or about $170 
million per year. As a result, PJM's independent market monitor 
and the Organization of PJM States are calling for changes to 
PJM's FTR process to ensure all congestion revenues are 
refunded to ratepayers.
    In New York, recent analysis by Stanford University shows 
that non-load-serving entities received FTR profits of over 900 
million since 1999, or about $60 million per year. As explained 
in a 2014 expose in the New York Times, FTRs were originally 
designed to help protect electricity producers, utilities, and 
industries that need to buy power, but, quote, Wall Street 
banks and other investors have stepped in, siphoning off much 
of the money.
    In the Midwest ISO, ratepayers have received less than 80 
percent of day-ahead congestion rent since 2010. This 
represents a loss of at least a hundred million dollars per 
year from the FTR auction. If ISOs don't take action to address 
this issue, the FERC will need to take action to protect the 
Nation's transmission ratepayers.
    Thank you again for the opportunity to be here today and I 
look forward to answering any questions you have on this issue.
    [The prepared statement of Dr. Hildebrandt follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    
    Mr. Upton. Thank you.
    Next, we are joined by Max Minzner, partner of Jenner & 
Block LLP. Welcome.

                  STATEMENT OF MAX J. MINZNER

    Mr. Minzner. Thank you. Thank you, Chairman Upton, Ranking 
Member Rush, committee members. I appreciate the opportunity to 
be here today. My name is Max Minzner. I am a partner at the 
law firm of Jenner & Block. From 2015 until 2017 I was the 
general counsel at the Federal Energy Regulatory Commission and 
from 2009 to 2010 I was Special Counsel and the Director of 
Office Enforcement at FERC where I helped design and oversee 
the agency's enforcement program.
    I believe that financial transactions play an important 
role in today's energy markets. However, I think it is worth 
distinguishing between two types of financial transactions. 
First, some transactions occur within the RTO and ISO markets. 
Generally, those financial products take their value from the 
sales of physical energy and are designed to facilitate the 
sale of physical energy in some way. Those transactions are 
generally FERC-regulated.
    Second, some transactions in energy derivatives occur 
outside those markets. For example, trading can occur on ICE or 
NYMEX. To the extent that those transactions are regulated, the 
Commodity Futures Trading Commission oversees the markets where 
they are traded. This division leads to a core question for 
Congress and for Federal regulators: which products should be 
traded in the markets regulated by FERC and which products 
should be traded elsewhere?
    To answer this question the Commission should focus on its 
role as the regulator of transactions in physical energy. In my 
view, considering the expertise, mandate, and jurisdiction of 
the Commission, financial products should exist within the FERC 
markets to the extent that they are helpful to improve the 
functioning of these physical energy markets. They should not 
be created or expanded past the point at which they are needed 
to ensure that the physical markets work efficiently and 
deliver value to consumers.
    Right now, the financial products in the FERC markets 
generally serve this purpose. For example, virtual bids and 
offers can reduce price risk and improve reliability by 
aligning the prices in the day-ahead and real-time markets for 
electricity. Similarly, FTRs allow entities to reduce their 
exposure to the risk of price variations.
    While these products do have real value for consumers, 
appropriate regulation of their trading by the Commission is 
important. For example, FERC has correctly worked to ensure 
that adequate credit requirements exist in the RTO and ISO 
markets. These requirements mandate that market participants 
have the financial ability to cover the obligations they 
assume. FERC also needs to carefully coordinate with other 
regulators. Given its jurisdiction, the CFTC has a role to play 
in this area. These two agencies need to work together to 
ensure coordinated regulatory efforts.
    A robust FERC enforcement program is also crucial. 
Financial products have played a role in many of FERC's recent 
enforcement actions aimed at market manipulation. In 
particular, the Commission has often targeted a form of 
misconduct known as cross-market manipulation. Cross-market 
manipulation occurs when a market participant takes positions 
in two different but related markets. For example, a trader 
might obtain a large financial position in a product that 
derives its value from a relatively thinly traded physical 
energy product.
    By making large trades in the physical product, the trader 
might be able to change its price in ways that enhance the 
value of the financial position. Even if there is a loss on the 
physical position it can be offset by a much greater gain in 
the financial position. The Commission needs to make sure it 
has the analytic and oversight tools necessary to exercise its 
enforcement authority effectively and thoughtfully.
    Finally, the Commission should be open to improving its 
efforts in this area. These markets change quickly. As a 
result, the Commission should be frequently assessing the 
financial products and its markets, its regulatory approach, 
and its enforcement regime. Thank you again for the opportunity 
to be here today. I look forward to your questions.
    [The prepared statement of Mr. Minzner follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    Mr. Upton. Thank you.
    Next, is it ``Noah''?
    Ms. Sidhorn. ``No-ha.''
    Mr. Upton. Noha--I am sorry--Sidhom, CEO of TPC Energy on 
behalf of the Power Trading Institute. Welcome.

                    STATEMENT OF NOHA SIDHOM

    Ms. Sidhom. Thank you. Good morning, Chairman Upton, 
Ranking Member Rush, and members of the subcommittee. My name 
is Noha Sidhom and I am CEO of TPC Energy, a privately funded 
power trading firm. I am here representing the views of the 
Power Trading Institute, otherwise known as PTI. PTI represents 
a diverse group of energy market participants ranging from 
large load-serving entities, suppliers, marketers, privately 
held commodity trading firms, as well as funds with investments 
in the power space.
    My comments here today will focus on financial transmission 
rights known as FTRs. FTRs are essentially the price of 
congestion from point A to point B on the grid. These 
congestion contracts reflect the increasing value of 
transmission as more and more power flows across the lines from 
power supply resources to the customers consuming electricity. 
A good analogy is a toll road where the tolls increase during 
rush hour. As road capacity becomes tighter with more commuters 
driving to and from work, the price to use that road increases.
    The same is true for electricity flow across the power 
grid. FTRs are purchased in an open and transparent auction 
that is connected by each RTO/ISO market. Market participants 
compete by submitting bids for specific megawatt quantity of 
FTRS on the transmission paths made available in the auction.
    From the inception of the organized markets, the Federal 
Energy Regulatory Commission directed the creation of FTRs as a 
means to provide open access to the transmission grid. Congress 
demonstrated its commitment to forward pricing in the Energy 
Policy Act of 2005 by directing FERC to undertake a rulemaking 
to implement long-term FTR auctions. And we think Congress was 
correct and forward-thinking in supporting that framework.
    Today, market participants utilize FTRs in a variety of 
different ways to the benefit of consumers. Load-serving 
entities who supply electricity to consumers utilize FTRs to 
hedge the risk of the price of congestion when serving their 
customers. Generation owners and developers utilize FTRs to 
hedge their risks to price volatility in the power markets.
    Financial participants provide liquidity and competition in 
the FTR market which contributes to maximizing the value of the 
transmission system, a benefit to load-serving entities. 
Financial participants also utilize FTRs by including them in 
portfolios of diverse products to provide competitive risk 
management and hedging services to load-serving entities, 
generation owners, and generation developers.
    FTRs save consumers money in three key ways. First, they 
provide an accurate price for the contracts that are allocated 
to transmission customers representing consumers. We are 
basically the tool on how to return those dollars back to 
transmission customers. They provide a price for congestion on 
the grid to determine whether or not the cost of congestion is 
a more appropriate investment than the build-out of additional 
infrastructure.
    So essentially, do we just want to pay for the cost of 
congestion or do we need to build new infrastructure? That is 
really important because if we overbuild the system consumers 
are going to pay for that for decades to come and it is going 
to cost them billions of dollars.
    They provide a price signal to lenders financing 
infrastructure development and thus reduce the cost of 
financing. Over the past 2 decades of implementing FTRs as a 
core component of RTO/ISO markets, certain practices have 
proven to be successful and should be adopted in every market. 
Long-term auctions need to be implemented. None of the ISOs are 
in compliance with Order 681 which mandated auctions that cover 
at least the 10-year period. Currently, the longest term is 3 
years.
    Allocation of congestions costs caused by unplanned outages 
should be allocated to those who caused the costs to be 
incurred. New York ISO employs this practice and as a result 
has far fewer unplanned outages. Every other ISO should be 
encouraged to follow a similar practice. The FTR markets are 
robust and there is increased liquidity year-over-year. The 
Commission recently noted that there is zero evidence that a 
redesign of the FTR markets is warranted.
    That being said, there are challenges both in the FTR 
markets and in the markets in general that impact the way the 
FTR markets function. The key challenges at a high level are 
lack of transparency and outage scheduling; network model 
updates that are not consistent or transparent; the price 
formation efforts at FERC should be expanded and expedited; and 
the technology utilized by the RTOS and ISOs need significant 
improvement.
    Innovation and competitive prices for consumers are the 
core of our American economy. The Commission has spent the last 
2 decades promoting these markets and the financial products 
that lie at the core of their creation and these economic 
concepts have worked to benefit your constituents. The way they 
think about electricity has fundamentally changed particularly 
over the last decade. Now we have to go the extra mile by 
ensuring market design flaws are fixed in short order, 
maintaining competition by expediting price formation efforts 
in long-term auctions, and pushing the RTOs and ISOs to take on 
a much-needed upgrade of their hardware and software systems.
     It is our responsibility as industry members to work with 
you, FERC, and other stakeholders to ensure that these markets 
remain competitive, liquid, and fair to continue to benefit 
consumers. We look forward to working on future improvements 
and thank you for the opportunity to testify here today.
    [The prepared statement of Ms. Sidhom follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    
    Mr. Upton. Thank you.
    Next, Vince Duane, senior VP and general counsel for PJM, 
welcome.

                 STATEMENT OF VINCENT P. DUANE

    Mr. Duane. Thank you, Chairman, Ranking Member, members of 
the subcommittee. My name is Vince Duane. I am a senior vice 
president of PJM, and like my colleague to the right, Dr. 
Hildebrandt, I work for an organization that administers these 
markets, we don't participate in them. Indeed, our mission is 
simply to deliver wholesale electricity at the lowest possible 
cost to the consumer. And the litmus test for financial trading 
in these markets is whether it furthers that mission. Quite 
simply that is the question.
    There are two points I would like to bring out to the 
committee's attention that bear on that question and that are 
unique to these electricity markets like PJMs. First, our core 
function is a physical function. We commit generation for sale 
and purchase and deliver it to the ultimate consumer. We do 
this with the assistance of financial products that trade 
alongside physical transactions and that is something that 
makes us quite unique relative to other commodity markets where 
primary physical markets are quite separate and distinct from 
secondary financial and derivative markets.
    We are a little bit of a hybrid in our financial markets 
because we believe that financial products can bring liquidity, 
they can bring price convergence, and can bring pricing 
discovery to assist in the operation of the physical market, 
but that is the standard. There is no other independent basis 
for these types of transactions to exist in these FERC-
regulated markets unless they meet that standard. There are 
other places for them to go.
    We have in this industry our own secondary financial 
markets. Mr. Minzner made reference to some of them--NYMEX, 
Intercontinental Exchange. There are places to go outside of 
the FERC-regulated markets if there are other needs for 
financial traders and hedgers. The second point I would like to 
make is that these markets are complex. I don't think I need to 
say that but I will start with that point.
    Some of you may have heard the term market design and 
indeed these FERC-regulated markets are very heavily 
engineered, very much rule-focused. We use rules, thousands of 
pages of rules, in fact, that are on file with the FERC in the 
form of a PJM tariff, and underlying those rules are models and 
algorithms that do two things generally.
    One, we use these things to dispatch and commit generation 
to meet load to keep the lights on in the system and we do that 
in a way that sets prices. So when you have prices that are 
formed at least in part by market design, by rules and 
algorithms, we have learned a few interesting things over time.
    First, price dislocations can and do occur, and if these 
dislocations are caused by a rule feature or by a modeling 
difference, no amount of financial trading is going to correct 
those price dislocations. In fact, it will just simply exploit 
and profit that dislocation without bringing the arbitrage 
value that you would theoretically expect to see.
    Revenues in these systems are highly contested between 
asset owners and consumers. So where trading exploits a price 
dislocation without bringing any corrective value, essentially 
it is just siphoning revenues out of that system. It is a hole 
in the bucket and it is something that needs to be plugged as a 
hole in the bucket.
    So in conclusion, the question is whether financial trading 
in these FERC wholesale electricity markets bring value. My 
answer is yes, but with qualification. The important point is 
you cannot assume the efficiency values that you would normally 
see in purely financial markets such as those administered by 
the SEC or the CFTC.
    Those values are necessarily going to hold in these unique 
physical electricity markets. But if they are rationalized and 
if these trades are incented properly and if they are limited 
where necessary, they can bring benefits. They do bring 
benefits and transaction efficiency to the physical generation 
owner, to the transmission customer, and ultimately to the 
consumer. Thank you very much.
    [The prepared statement of Mr. Duane follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
       
    Mr. Upton. Thank you.
    Last, we are joined by Chris Moser, senior VP of Operations 
for NRG Energy.

                 STATEMENT OF CHRISTOPHER MOSER

    Mr. Moser. Good morning, Chairman Upton, Ranking Member 
Rush, members of the subcommittee, and fellow panelists. My 
name is Chris Moser, senior vice president for commercial 
operations and all operations at NRG Energy. As such, I am 
responsible for the physical operation of our power plants as 
well as the purchase and sale of billions of dollars of coal, 
natural gas, and power each year.
    My employer, NRG, is one of the largest owners and 
operators of power plants in the United States. Our portfolio 
includes conventional plants such as coal, nuclear, natural gas 
and oil, as well as a large renewable fleet of wind and solar 
generation. NRG also operates a retail business that serves 
approximately three million retail customers largely in Texas, 
but also in the eastern States that allow retail electric 
choice. As such, we come at this from both the merchant 
generation side and from the retail providing side.
    As a purely competitive company with no captive ratepayers 
we earn what we make in the markets that we participate in. As 
such, we believe that fair and robust competition in the 
electric sector is the best means of delivering value to 
consumers. But that comes with risk, and management of 
financial and operational risk is critical to the competitive 
markets and those participants in the markets.
    NRG relies on a wide variety of tools to manage those risks 
to remain competitive and to reduce the delivered cost of power 
to consumers. Included in this tool chest are a wide array of 
financial products traded within organized energy markets, 
traded bilaterally between market participants, and through 
centrally cleared exchanges. NRG uses FTRs and virtual 
transactions every day to hedge and deliver affordable power to 
consumers.
    On the retail side, NRG uses FTRs to hedge against 
congestion charges on the transmission system which allows us 
to sell power to end use customers at predictable prices. By 
allowing us to protect against unforeseen congestion costs on 
the transmission system, we are able to offer customers 
affordable, fixed-price power offerings. Without these 
products, our company and others would have to charge higher 
prices to manage that increased risk, that risk premium. That 
cost would end up being included in retail sales which directly 
increases consumer costs.
    On the wholesale side, NRG likewise utilizes financial 
products for price discovery and to ensure that our large 
central station generation receive a predictable price for the 
power that they produce. This includes selling power on a 
forward basis which allows NRG to lock in prices. It also 
includes purchasing FTRs to perfect those hedges and utilizing 
virtual transactions to move power sales from day-ahead market 
to the real-time market or vice versa. These tools are critical 
to the profitable operation of our power plants and to the 
overall stability of the wholesale competitive markets for 
electricity.
    In conclusion, financial bilaterals, FTRs, and virtual 
transactions all play a critical role in the production and 
delivery of affordable power to consumers. I thank you for the 
opportunity to appear before the subcommittee and I am happy to 
help with any questions.
    [The prepared statement of Mr. Moser follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    Mr. Upton. Well, thank you. Thank you all. We will now go 
to questions from the Members, I guess.
    The first question I have, Mr. Allen, you indicated in your 
testimony that--I believe you said--the western alliance did 
not participate in virtual traders. Is that right?
    Mr. Allen. Yes.
    Mr. Upton. So which States are in that western alliance?
    Mr. Allen. It is the western Energy Imbalance Market, so it 
includes Utah and Nevada, parts of Colorado. It is dispatched 
as a part of the California Independent System Operator, but 
convergence bidding--that is what they call virtuals in 
California--is only allowed in the California ISO proper. So 
most of California and a little sliver of Nevada is the only 
place where virtuals are allowed to----
    Mr. Upton. So by not having that would you say that those 
folks in those States then pay, the consumers, themselves, 
likely pay a higher utility cost, higher electric cost?
    Mr. Allen. Higher than they would otherwise with the 
competition and the liquidity that virtuals add. Yes, sir.
    Mr. Upton. Let's see. Ms. Sidhom, in your testimony you 
explained that financial markets participants increase 
competition and efficiencies in the electricity markets. Can 
you explicitly state how the trading of those FTR instruments 
makes the markets more efficient?
    Ms. Sidhom. Absolutely. So essentially what is happening 
here is, you know, Dr. Hildebrandt explained these transactions 
as a price swap and that is exactly what they are. FTRs are a 
price swap. It is a fixed for floating. So the load-serving 
entity gets the fixed and a financial entity will take on that 
floating risk. So they are basically shifting risk away from 
consumers and onto companies like mine that are willing to take 
on that risk and can manage that risk and offer hedging 
services.
    So when you have all this competition in the market and 
market participants that are willing to bid in an open and 
transparent auction so you can go into any RTO/ISO Web site and 
see who got the contract in the auction and the price they got 
the contract, there are also multiple rounds systems of these 
auctions so there is multiple opportunities for load-serving 
entities to have some price discovery, as Mr. Moser was saying, 
to then offload some of their risk in multiple rounds.
    So essentially what we do is we go in and we provide 
liquidity and price competition to benefit the consumer and 
shift that risk of the volatile market away from them.
    Mr. Upton. You also said in your testimony that they needed 
to have an upgrade on the hardware and software.
    Ms. Sidhom. Yes.
    Mr. Upton. So I mean, where are they in that process?
    Ms. Sidhom. That is an excellent question.
    Mr. Upton. Do they understand the problem? I mean do they--
--
    Ms. Sidhom. We don't have a really good answer to that 
question because there is not a lot of transparency as to what 
software and hardware upgrades have been made. We know DOE had 
a $3 million grant that they gave to the Midwest ISO to improve 
their day-ahead solve time so essentially so that when 
generators get committed in day-ahead they have some time to 
procure the gas. It is a gas-electric coordination initiative.
    We really don't know where those funds went, what the 
upgrades were like, what upgrades are necessary. It is kind of 
all a big black box to us. But what I can tell you is that 
several of the RTOs and ISOs have had a hard time solving their 
auctions and that is an issue for us because that is a risk. 
They may not solve the auction until the settlement period so 
you essentially have positions on that you don't know what your 
profits and losses are.
    So that is a big concern. Financial institutions in this 
country are utilizing great technology and they are processing 
far more information than the RTOs and ISOs are and so is our 
intelligence community. So we would really like more 
transparency into what upgrades are necessary and a plan just 
like any private company would plan, OK, over the next 3 years, 
here is how we are going to spend dollars on making technology 
upgrades.
    Mr. Upton. Thank you.
    Mr. Minzner, so as you talked particularly in your formal 
role at FERC, have you found that the CFTC and FERC have worked 
pretty well together as it relates to the transactions in terms 
of their oversight role? Are there real squabbles? Are there 
things that we need to know about?
    Mr. Minzner. I think now their relationship is quite good 
and the agencies have begun to work well together and have been 
effectively able to coordinate their enforcement programs. I 
think the relationship has waxed and waned. You may be familiar 
with a case several years ago where the agencies ended up 
litigating against each other in the DC Circuit over the scope 
of enforcement authority.
    I don't think anybody would view that as a desirable 
outcome, but I do think as the leadership of the agencies have 
worked together, tried to build the relationship, and tried to 
build relationships at the staff level, many of those issues 
have passed and I do think now the relationship is much 
stronger and much more effective.
    Mr. Upton. Thank you.
    Mr. Rush?
    Mr. Rush. Again I want to thank you, Mr. Chairman.
    Ms. Sidhom, am I pronouncing it right?
    Ms. Sidhom. Yes.
    Mr. Rush. Do you believe that FERC currently administers 
the financial trading market in a truly open, transparent, and 
competitive way that best serves the interests of consumers, 
and if reforms are needed do you believe that they could be 
accomplished best administratively through a commission, or is 
congressional action needed?
    Ms. Sidhom. I don't believe congressional action is needed. 
I think you guys already took the appropriate action in EPAct 
2005 promoting long-term auctions. I think that FERC just needs 
to actually push the ISOs to go in that direction and again 
push them on the technology initiative.
    The Commission recently looked at PJM's market design for 
FTRs and they basically said this is working for consumers. It 
is saving them money. It is providing the necessary 
competition. The FERC was very clear there is no redesign 
warranted. It is very important for these transactions to 
actually occur within the RTO/ISO paradigm because the RTOs and 
ISOs are the only ones that can model the constraints.
    They can say, OK, we have a transmission line that is 
coming online in 3 years from now. We have a unit that is 
retiring here. We can reconfigure the right. So we used to have 
load from A to B. That is where the load concentration was. Now 
we have it from A to C, so we are going to reconfigure the path 
where we need to price that congestion. They are really the 
only ones capable of doing that so it is so important for them 
to remain as part of the paradigm and FERC agrees. They don't 
agree with us often, so I think it is great that they recently 
agreed with us.
    Mr. Rush. Mr. Allen, in your written testimony you say my 
concerns from a previous hearing regarding the potential for 
RTOs to shut out public interest and participation and you 
said, and this concern should extend beyond consumers to 
encompass all minority interests in the ISO/RTO stakeholder 
process, including financial market participants.
    How would PJMs propose reforms that FERC is currently 
considering regarding the up-to congestion impact in this 
process and, more specifically, what effect would these reforms 
have on consumers?
    And Mr. Duane, would you also chime in on that question?
    Mr. Allen. Thank you, Ranking Member Rush. I think the UTC 
case that came out of the PJM stakeholder process is a perfect 
example of the minority interest that is not being protected. 
If you look at the way the voting structure is in PJM for the 
stakeholder process there is five different categories of 
voting--generation owners, transmission owners, load-serving 
entities, and financial market participants are one of those as 
well. Most of the PJM membership it is lumped into what they 
call the other supplier sector which is the sector financial 
market participants are lumped into.
    And just so you know, if an IPP or an independent power 
producer is building a power plant, until that power plant goes 
online they are lumped into the other supplier sector. So like 
I was saying, most of the membership is there. And if you look 
at how the voting occurred in the PJM stakeholder process you 
had basically the utilities voting in one way and then 
everybody else voting in a different way, but it passes because 
the utilities, you know, have a large share of market power in 
the stakeholder process.
    So I do think reforms are necessary. And, really, when I 
think about a stakeholder process I wonder, you know, I can 
understand having a stakeholder process to determine smaller 
issue things, but when it comes to market design and features, 
I think, you know, a lot of that regulation should not be 
coming from the utilities or from stakeholders. It should be 
coming from the FERC or from Congress, someone other than--it 
is analogous to the inmates running the asylum.
    Mr. Rush. Mr. Duane?
    Mr. Duane. Thank you, Mr. Rush. And I see we have limited 
time so I will try and be very brief here. There is a lot to 
say, but I will just refer you back to the fundamental test at 
least in our belief is that financial trading has to benefit 
the physical participants and the system as a whole including 
the consumers and the generators, transmission customers. So 
our stakeholder process overwhelmingly voted in favor of these 
reforms and that covers both load interests and supply 
interests.
    Ultimately, at the end of the day the question of whether 
these transactions bring that kind of value that I am 
describing will have to be resolved by the FERC and that is why 
they are there, to address those types of controversies.
    Mr. Rush. Thank you. I yield back.
    Mr. Upton. Mr. Olson?
    Mr. Olson. I thank the Chair, and welcome to our six 
witnesses, the special Texas howdy for Chris Moser. I can see 
NRG's biggest power plant, the Paris Power Plant in Thompson, 
Texas, from my house. That plant generates 36,000 megawatts of 
power. Four Powder Basin coal trailers come down -- trains come 
down every single day, 115 cars. They have four generators of 
natural gas power and four generators with coal power.
    And one coal power is very special, it is called Petra 
Nova. They capture over 95 percent of the CO2 in the process, 
put in a pipeline, sent it about 60 miles south southeast and 
get oil out of the ground. That is happening right now in my 
hometown, or in my home district of Texas 22. I can see that 
from Sugar Land, Texas.
    OK, my brag about Texas is over. Let's get serious.
    Mr. Moser, unlike others on the witness panel today, your 
company mainly uses financial products like an insurance 
policy. What would happen if these financial products aren't 
available?
    Mr. Moser. The risk that we are otherwise covering with 
those insurance products would either be borne by us and passed 
through to consumers at what we think, you know, what we 
estimate that would be or we would have to find a replacement 
product which would not be administered by the PJM or the ISOs. 
We would have to go to Nodal Exchange or something like that to 
try and fill it somewhere else.
    Mr. Olson. Is it different for retail and wholesale 
products, I mean differences between those markets?
    Mr. Moser. So as far as FTRs go, the FTRs as they are 
constituted and show no difference between a retail or 
wholesale when all you are doing is locking in the congestion 
basis between two points and they are equally effective for 
hedging either generation or retail.
    Mr. Olson. And how often does a trade go bad and what kind 
of internal oversight do you have to make sure that doesn't 
happen?
    So we have a very fulsome risk process and risk policy and 
a risk department which oversees the trades that we put on. And 
the definition of a trade going bad is probably different 
between me and from one in which a strictly financial 
participant is. So when I am talking about hedging I am 
literally saying I sold something for $30 and I am buying it 
for $28 and I have locked in $2 of margin.
    So I am indifferent to what the FTR does because it is in 
effect, if I paid $5 for the FTR and it comes in at 4 that 
looks like a loss of 1, but in effect I was getting rid of risk 
and I am happy because I locked in my margin. However, if a 
purely financial or spec trader bought something for 5 and 
ended up settling for 4 that would be the definition of a bad 
trade. For me it is a hedge, it is not a bad trade. It was 
eliminating risk that I wanted to eliminate.
    Mr. Olson. Thank you.
    Now let's bring in Mr. Allen. I understand that each region 
offers different types of financial trading products. From your 
experience, are there certain RTOs who offer unique or 
particularly successful types of financial trading products? If 
so, please explain.
    Mr. Allen. Yes, sir. I do. I think it is called ERCOT.
    Mr. Olson. I am familiar with ERCOT.
    Mr. Allen. What is unique about ERCOT, you know, ERCOT in 
Texas has the most vibrant retail market. And I think part of 
the reason why they have the most vibrant retail market is they 
have the widest availability of financial instruments to allow 
retail competition. And what we have been advocating for both 
at FERC and in the stakeholder process and now here before you, 
we would like to see a point-to-point product--that is why they 
call it an ERCOT--in all the ISOs. It is an excellent mechanism 
by which it, you know, people can use it, retail load-serving 
entities can use it to hedge.
    The FTR is great. The FTR is a longer-term instrument. It 
is a minimum of 1 month out a number of years. The point-to-
point product is a daily to real-time product that--it exists 
somewhat in PJM, although they are trying to get rid of it. It 
is a central for retail competition hedging.
    Mr. Olson. Mr. Moser, do you care to brag about Texas, too, 
like Mr. Allen? ERCOT?
    Mr. Moser. Yes. So ERCOT is different than a lot of the 
other markets in a couple of fundamental ways. First of all, it 
is one of the few places where we see load growth. There is 
very little load growth in other places. Texas is growing 
between, depending on how you do the math, 1\1/2\ and 2 
percent.
    Other markets, the other major difference is Texas is an 
energy-only market. We only make money when we are dispatched 
and we run or when a customer freely chooses for us to be their 
retail electric provider. You know, we are not a utility in 
that respect, but we also don't have any capacity payments, 
which are--call it insurance policies that other assets and 
other markets have.
    Mr. Olson. My time has expired. Chairman, I did not mention 
my Astros being the baseball World Series champions. I yield 
back.
    Mr. Upton. We are proud of the Astros.
    Mr. McNerney?
    Mr. McNerney. I thank the chairman. I don't really need to 
brag about California every time I get the microphone, 
Chairman.
    You know, I found your testimony very enlightening, you 
know, there is so much to learn. It is a complicated market, so 
thank you for coming and giving us your testimony. I would like 
to start with Mr. Hildebrandt.
    Do you consider yourself to be like an inspector general of 
the Cal ISO system, I mean analogous to Federal agencies?
    Dr. Hildebrandt. I wouldn't call it inspector general. It 
is called the independent market monitor. FERC requires each 
RTO/ISO to have one. I think I view our job is to be, you know, 
analyze the data, monitor the markets closely, and call it like 
we see it, objectively, for both the FERC, for our management, 
for the board, and for stakeholders as well.
    Mr. McNerney. Well, how would you respond to Mr. Allen's 
remarks about the Energy Imbalance Market, his claim that their 
entry to Cal ISO improved efficiency and reduced greenhouse 
gases?
    Dr. Hildebrandt. Well, I think he was--the question to him 
was why don't they have virtual bidding and if they did I guess 
would it lower prices. And the reason they don't have virtual 
bidding is there's no day-ahead market in the Energy Imbalance 
Market. So to have virtual bidding you have to have day-ahead 
market and real-time market. There is no day-ahead market in 
the Energy Imbalance Market, so of course they don't have 
virtual trading there.
    Mr. McNerney. So it is not a real clear case.
    Dr. Hildebrandt. It is not an issue. You know, if they were 
to join the California ISO and have a day-ahead market they 
would therefore have virtual trading as well.
    Mr. McNerney. One of the things you mentioned was that the 
markets should be organized to allocate auction revenues 
better. You sort of dwelled on that. How would you go about 
doing that?
    Dr. Hildebrandt. Well, I think where--so as I tried to lay 
out we agree that FTRs should be used to allocate congestion 
revenues back to the transmission ratepayers, but we are 
calling on the ISOs to not auction off additional FTRs. And if 
they did that all the congestion revenues, if there was just no 
auction it would automatically go back to transmission 
ratepayers.
    Ms. Sidhom, I think her first point was that FTRs are a way 
of getting congestion revenues back to ratepayers.
    Mr. McNerney. Right.
    Dr. Hildebrandt. Well, if you just don't auction them they 
automatically go back to ratepayers. And they are doing a very 
bad--the FTRs, if you view it as an instrument for returning 
congestion revenues to ratepayers they are failing miserably at 
that. In California they are only returning 50 cents on the 
dollar and in other ISOs it is more, maybe 80 cents on the 
dollar.
    So they are not returning--so our proposal is pretty 
simple, is allocate FTRs to load-serving entities but then 
don't auction off the rest, a lot of those congestion revenues 
to go back ratepayers. If, you know, the free market, they are 
free to buy and sell hedges, insurance, if you will. You know, 
I think that is the role that financial entities they are very 
creative people. They are good at managing risk. I think they 
are free to sell price swap contracts to generators such as NRG 
to hedge their risk.
    And we think that mechanism, a market between, you know, 
willing buyers and sellers is what will give you the correct, 
efficient, and fair price for I think what has been called, 
here, insurance policies.
    Mr. McNerney. All right, thank you.
    Mr. Minzner, you sort of dwelled on the cost market and 
manipulation between the physical market and the sort of 
financial markets. How would you propose that they be better 
regulated? Is there an important distinction that needs to be 
made between the types of transactions or how would you do it?
    Mr. Minzner. So I think that is a great question. You know, 
cross-market manipulation has been something the agency has 
focused on in its exercise of enforcement authority ever since 
EPAct 2005, which arose out of the western power crisis largely 
focused in California. I do think FERC has been doing a good 
job at looking at this type of conduct trying to build the 
analytic and oversight tools it needs to be able to detect the 
conduct and when appropriate stop it.
    I do think it is an area where the agency has had to make 
sure it has the data it needs about trading both in the FERC-
regulated markets as well as the markets regulated by the CFTC 
and other regulators. As you can imagine, for market 
participants they care about the financial positions they hold 
broadly across all the markets, so it is important for the 
agency to make sure it can see all of those positions. I think 
it is an area where the agency has been succeeding largely, but 
it is certainly a work in progress.
    Mr. McNerney. I wanted to ask you a question, Ms. Sidhom, 
but I have run out of time, so you will have to take it up with 
another--I know you wanted to respond to Mr. Hildebrandt's 
comments. I yield back.
    Mr. Upton. Mr. McKinley?
    Mr. McKinley. Thank you very much, Mr. Chairman. Sorry that 
I slip out. Like you said, we have another meeting going 
downstairs to get back to.
    I missed some of the presentations that you had, 
particularly Mr. Duane's comments from PJM. But we have had a 
series of hearings in the last year-plus over resiliency and 
dependability in our grid, and so as a result perhaps, I know, 
I think in your testimony you were going to say something about 
the rule, or the directive coming from the DOE over to FERC, 
how to take care of this.
    One of the arguments that I have heard here so many times 
in committee has been market rates. The market rate should make 
that determination. Well, I am in agreement to some extent, but 
the market rate there should be a difference between market 
rate and dependability rates so that we know when we have a 
polar vortex or some problem that we know we can count on their 
being power available to folks.
    Because of this pricing system that we have set up, I am 
concerned about how that could be, how that is going to come 
into play if FERC were to recognize that dependability is just 
as important as market rate. Because on market rate I am trying 
to find an insurance policy for people that during bad weather 
they are going to have electricity.
    And I know it has been a very divisive issue ever since 
that has come out, and we know that in PJM 20 percent of the 
power plants went down during that period of time. So I am 
looking for that kind of support level in the pricing.
    So, Mr. Duane, if you can give me some, a little bit better 
explanation, a little bit of how the financial trading tools, 
how they could be impacted if FERC were to come out with some 
kind of movement which in many respects it would be like an 
insurance policy that would give us some assurance that we are 
going to have power for our grid.
    Mr. Duane. Right. Thank you, Mr. McKinley. You know, you 
are touching as you point out on a very complex and 
controversial area and it is a fair question to ask right at 
the outset, are these organized markets returning a price that 
is fully valuing all aspects of the infrastructure that people 
are relying on to keep their lights on and to heat their homes 
and power their businesses.
    It is a fair question because you can't assume in these 
markets that just where supply and demand meet you will get the 
right price because, as I mentioned, they are very highly 
engineered and revenues in these markets are very highly 
contested. You have the Department of Energy asking the 
Commission right now, are these markets adequately compensating 
generators for the full panoply of value that they are 
providing or is there something missing in the markets.
    And the gauntlet that has been thrown down when you also 
consider on the other side of the equation are consumers who 
are very wary of paying any more than they need to for 
electricity. So we have to ask ourselves a question, is the 
system working? Are the prices correct? When you hear the term 
price formation that is really what it means, are prices being 
formed correctly in these very heavily designed markets.
    The point of interplay with the financial trading is if we 
are not getting any efficiency value to assist in these markets 
from financial trading it really is siphoning revenues off the 
top. It is a hole in the bucket in the system. And the 
squabbling that is going on between load and generators as to 
whether generation is getting paid enough, whether load is 
paying too much, you know, there is another point to be made 
here is like, well, are we running a system that is fully 
efficient or are we having some leakage here so that the pie is 
shrinking.
    And I think the point here is there is a lot of value for 
financial trading, but where it isn't providing value it needs 
to be curtailed and limited, rationalized, so that we do 
preserve revenues to support the physical participants in the 
market.
    Mr. McKinley. We also spoke at the last hearing about the 
Longview Power Plant and the impact that has as the most 
efficient coal-fired power plant in America, but because of the 
network of pricing they are having trouble being able to market 
their electricity into the system. And so you all were going to 
get back to me. I haven't heard from anyone yet.
    Mr. Duane. OK. Well, I apologize for that. I am not 
familiar with the request itself, but we will definitely get 
back with you on an examination of that question. We are very 
familiar with the Longview Plant. It is a relatively recent 
coal plant, highly efficient waste coal facility. It is located 
right on top of the Marcellus Shale fields so it does face 
stiff competition from a lot of new combined cycle generation.
    But your larger point and I think it is one we agree with 
at PJM is that when you are running a reliable system over the 
long term and you want resiliency, putting all your eggs in one 
fuel basket doesn't sit well with a lot of engineers and 
planning people, so we are sensitive to the point.
    Mr. McKinley. Thank you very much. I appreciate it. I yield 
back.
    Mr. Upton. Mr. Peters?
    Mr. Peters. Thank you, Mr. Chairman.
    I wanted to get back to Ms. Sidhom. So it is always a 
little difficult because I get, you know, we don't have a 
discussion. We sort of get six pre-prepared things which are 
all very interesting, but I am trying to connect where the 
differences are. What I would like to see, maybe you could 
respond to Mr. Hildebrandt's concern that consumers aren't 
getting the value of these trades particularly on FTRs.
    Ms. Sidhom. Absolutely. So I think California is unique in 
that it has some of its own challenges with the markets. And 
the problem is not with the FTR product, the problem is with 
the market design. They have got significant modeling issues so 
they will clear you out of the money all the time. Meaning, 
let's say, I will just give you an analogy of the equities 
market to keep it simple.
    Let's say you want to buy a stock for $30 and your broker 
comes back and says we sold it to you for $60. That happens in 
California all the time. There is something wrong with their 
pricing model. Also, their outage scheduling is a real problem 
so about over 50 percent of the time the outages are not 
submitted in a timely manner to be modeled in the auction and 
that is what causes a lot of what Dr. Hildebrandt is referring 
to as revenue adequacy, so the underfunding of the payments 
going back to the load-serving entities.
    So it is not the FTR product that is the problem. You 
absolutely need the auction because the auction is how you 
actually price the allocated rights. So essentially, you 
allocate rights to load-serving entities and then how do you 
get a price for those allocated rights. I give you ten stocks, 
what is the price for them? The price for them is obtained when 
the access capacity is auctioned off. I don't know how else you 
would be able price them.
    As Vince's testimony stated, the FTRs were an integral part 
of the market design. They weren't just an option, they are how 
we provide open access.
    Mr. Peters. OK. Mr. Hildebrandt, can you respond to that?
    Dr. Hildebrandt. OK. Working backwards, it is absolutely 
incorrect that the allocated, we call them CRRs, FTRs are 
priced based on the auction. They are allocated out, load-
serving entities hold them, and they get paid the congestion 
revenues. So by not selling them, they get a dollar, the full 
dollar in congestion revenues versus which is on average a 
price in the auction which is only 50 cents on the dollar.
    So the ISO allocates to load-serving entities. They keep 
those. They keep the congestion revenues. But then the ISO 
auctions off additional FTRs which sell for 50 cents on the 
dollar and those are bought primarily by financial entities 
with--and then the payout directly reduces the pot of 
congestion revenues which otherwise then gets fully refunded 
back to transmission ratepayers.
    So, and as California is different, it is true the payout, 
our analysis shows while it is 50 cents on the dollar it may be 
more like in the 70 or 80 percent range in the other ISOs. But 
in other ISOs across the country, and we have now almost a 
decade worth of experience that even in the other ISOs 
ratepayers are only getting back about 70 or 80 cents on the 
dollar of the congestion revenues that they are paying for.
    Mr. Peters. So would there be some margin where they 
shouldn't get back, do you think they should get back a hundred 
percent?
    Dr. Hildebrandt. Well, if entities are buying these as 
hedges, if I am a generator and I am buying them as hedges I 
would actually expect a hedge to go for premium. If I am buying 
an FTR to take away the uncertainty of my congestion, I am a 
generator, I am NRG and I want to sign a deal somewhere for the 
fixed price and I want to get my power there from a generating 
plant, I should be willing to pay a premium. In fact, I think 
the hypothetical example he offered had him losing a dollar on 
the FTR.
    The fact is these are, they are earning, you know, it is an 
insurance policy that pays you, you know, a hundred percent on 
your premium. So it is not, so that analogy I think doesn't 
work.
    Mr. Peters. OK.
    Dr. Hildebrandt. And, you know, if they were being 
purchased as hedges we would expect the price to be, you know, 
equal or above the congestion revenues. I guess our final point 
is you don't need the ISO to run that auction because basically 
we are auctioning off things, insurance that is backed that is 
subsidized by ratepayers. Let the transmission ratepayers 
decide if they want to enter into those contracts.
    Have a market with if you want the ISO to run it, run a 
market if you don't think, you know, that private trading firms 
can do that, if you have the ISO run it base it on real bids 
from willing buyers and sellers. The financial entities here 
can offer to sell hedges, the generators here can offer to buy 
hedges, and if you want the ISO to run that market that is 
fine. But don't ask the transmission ratepayers to subsidize 
that.
    Mr. Peters. Ms. Sidhom, again, I have 7 seconds. Go ahead.
    Ms. Sidhom. So there is a risk premium built in because of 
these outages and that is why those dollars are not going back.
    Mr. Peters. Right.
    Ms. Sidhom. That is what is really creating the risk for 
the buyers. And so there is a risk premium that is being built 
in, but it is because of the market design issues.
    Mr. Peters. It suggests that it is market design.
    Mr. Chairman, I would yield back.
    Mr. Upton. Mr. Shimkus?
    Mr. Shimkus. Thank you, Mr. Chairman. This is a great 
hearing. I want to commend Mr. Peters. It is a great way to 
engage with our panel is to try to find where there is 
discrepancy and I just want to thank him for doing that. I am 
going to follow a little bit along because, you know, we are 
concerned about the national grid and reliability, but we also 
have our local parochial interests that deal with these 
markets.
    So I would like to start with Mr. Duane on in dealing with 
when the transition from regulated markets to the RTO model, 
PJM converted many entities from transmission rights to these 
financial transmission rights. How do you protect against 
additional risk for those who have lost their firm transmission 
rights? Are there entities that end up becoming losers in this 
transition?
    Mr. Duane. It is a very fair question. The transition 
really took place quite a few years ago, really over a decade 
ago, and I think it is fair to say the transition from being a 
firm physical customer to having a financial transmission 
right, which as Ms. Sidhom said is a fundamental element of the 
design structure, that was a fair exchange.
    What has happened though is nothing is static. The system 
changes. Load grows in different places. Load disappears in 
different places. Generation comes, generation goes. That 
changes the typology of the system and, frankly, the FTR was 
intended to anticipate those changes and provide options. Not 
just market options, but opportunities for people to designate 
different pathways.
    People being typically in PJM, these are load-serving 
entities who are trying to manage the risk of congestion or 
price differential. And as the system changes physically, there 
are opportunities that the FTR provides to reconfigure your 
pathways to reflect how electricity is more realistically 
flowing to you today as compared to where it was, say, 10 years 
ago.
    But short of transmission infrastructure build, there will 
be customers that are not as hedged today under this system as 
they would have been 10, 12 years ago.
    Mr. Shimkus. Right. And I would speak to expanding our 
transmission grid to allow those more flexible markets instead 
of, in essence, kind of dedicated pathways and convoluted 
systems that sometimes we develop.
    I want to go to Ms. Sidhom and Mr. Allen real quick. On 
financial trading institutions such as yours when you execute 
financial trades with the purpose of making a profit, when your 
company makes money from a financial transaction such as this 
financial transmission right, where does the payment come from?
    Ms. Sidhom. So we are basically offering a product. The 
payment comes from us offering this product which is where we 
are basically saying, look, we want to take the risk away from 
consumers, so how do we do that? We are natural buyers and 
sellers to--or we are basically the willing buyers and sellers 
to natural buyers and sellers, so that is where the payment is 
coming from. We are basically offering the other end of that 
transaction liquidity in the market.
    Mr. Shimkus. Mr. Allen?
    Mr. Allen. Yes, that is correct. Now there is a 
differentiation between what our two entities do. They are more 
FTR-focused. I am focused on the day-ahead and real-time. If we 
add efficiency to the market, if we improve the commitment, if 
we improve the reliability of the system then we make a profit. 
If we create inefficiencies or we get the day-ahead wrong then 
we lose money.
    Mr. Shimkus. OK, so let's go to the consumer. Do the 
consumers pay for your payout through their electricity bills?
    Mr. Allen. Well, each ISO acts as essentially a clearing 
broker where all of our transactions are cleared. So I put in 
buy and sell orders with PJM, they return whether we make or 
lose money. One thing to point out and I think it is important 
and it is in my written testimony. What is the load-weighted 
price of electricity in PJM? Wholesale level $29.23, so under 
$30. What is the retail rate in that same area? It is about 
$110 a megawatt, so wholesale prices are cheap. They are really 
cheap.
    Mr. Shimkus. Ms. Sidhom?
    Ms. Sidhom. Yes. I mean I think we absolutely save the 
consumer a lot of money. Both in MISO and PJM, they estimate 
over $2.5 billion of savings a year from having these markets 
in place. You know, these are heavy policed markets. The CFTC 
is looking at us, FERC is looking at us. We have market 
monitors like Dr. Hildebrandt looking at us. If FERC thought 
that we were siphoning money from consumers I think they would 
have put a stop to these transactions a long time ago.
    Mr. Shimkus. I have 730,000 people watching me, so--anyway, 
yield back.
    Mr. Upton. Mr. Green?
    Mr. Green. Thank you, Mr. Chairman, for holding the 
hearing.
    Mr. Moser, in your testimony you talk about FTRs hedge 
against congestion charges for end user, end user consumers. 
How much risk is there from the congestion charges that could 
potentially be pushed to consumers if it weren't for this 
product?
    Mr. Moser. Well, it would be pushed indirectly to them 
basically to the extent that none of the--or very few of--and 
when I am talking about retail consumers here, I am talking 
about homeowners not the large commercial and industrials who 
have a more sophisticated way of going about it and tend to 
shoulder some of the market things directly. But in terms of 
consumers, if the FTRs didn't exist and we had to price that in 
then rates would go up.
    Mr. Green. In the Texas retail market, of course Texas is 
different as we say all the time from other markets, but retail 
market, where do we most often see congestion being an issue 
and how are these products used within the State?
    Mr. Moser. Yes. We have historically seen a decent amount 
of congestion coming from the western part of the State where 
you have a lot of the wind assets flowing into through 
congested lines trying to get to Dallas and trying to get down 
into Houston. Texas has built the CREZ lines to try and 
alleviate the into-Dallas area portion and then they are 
working on a Houston import project right now to try and 
alleviate some of those congestions.
    But those are two of the classic ones. Really, anytime you 
are talking about congestion you are talking about, you know, 
assets, generation far away from load pockets and so the load 
pockets are often the congested pieces.
    Mr. Green. In the wholesale market when it comes to selling 
forward on a basis how do these products mitigate potential 
losses?
    Mr. Moser. So when we use, and this is different than just 
FTRs, right. I mean, you know, through ICE, which was explained 
by Mr. Minzner and others, we can go out and see where the 
price of next year, next month is trading. We can put positions 
on, sell some of our expected generation and lock, and then go 
and buy some fuel against that lock in what we expect to be our 
generation spread, our profit.
    But those sales are often at hubs where people agree to 
gather and make bulk purchases and sales. What we then would do 
would be go and try and perfect that hedge by using the FTRs to 
move where we have that sale to a location that approximates 
our generation plant.
    Mr. Green. OK. In your testimony you talk about 46 percent 
of the NRG's coal capacity in Texas from 2017 to 2020 has been 
forwarded or sold higher than other areas of the country. How 
does that compare to the other generation sources like natural 
gas at NRG? And of course you have a nuclear plant in southeast 
Texas. Is one fuel source forward sold more than another and 
what plays into that?
    Mr. Moser. Yes. Oftentimes we tend to sell more of our coal 
rather than the gas because the coal tends to be at the money 
or in the money and so we have a large expected value with 
that. Our specific portfolio is a bit like a barbell. We have a 
lot of coal and nuke on one end which runs all the time and 
then we have a lot of old expensive steam gas which doesn't run 
very often so we tend not to hedge that as much and kind of use 
that to try and hedge against our retail exposure.
    Mr. Green. What are some of the differences or difficulties 
in working in markets like ERCOT which lack capacity markets in 
other ISOs where the capacity revenues are established for a 
long-term forward basis?
    Mr. Moser. Well, it is easier in a market like PJM where 
you have a 3-year forward look at where the capacity prices are 
in terms of trying to determine the economic viability of your 
power plants.
    Mr. Green. OK.
    Mr. Chairman, that is my last question. But to follow my 
other colleague from the Houston area, when your house has six 
foot of water in it and you are so happy to have something to 
cheer about in the World Series.
    So--but again in my last minute, how did NRG deal with some 
of the problems we had? I heard that for example the coal 
plants had to shut down because the coal was so wet that 
natural gas was still there and of course the nuclear plant 
continued to produce.
    Mr. Moser. The South Texas Project stayed online throughout 
Hurricane Harvey. We did run into problems at a couple of gas 
plants in the Greens Bayou which is in the northeastern corner 
got flooded. Cedar Bayou which is down near the ship channel 
was at one point we thought was going to get flooded. What we 
did was basically we brought three shifts of people in--cots, 
MREs--and prepared to ride out the storm, in effect.
    But what you heard about Parish was absolutely correct. We 
did have at one point those coal plants--look, coal doesn't 
move up conveyors very well when it is liquid, it just kept 
running down, so we had to switch over to gas on those and we 
also brought the gas plants up. So I think at our low point we 
were in the 70 or 75 percent availability across our fleet in 
Texas. Limestone is far enough north that it wasn't impacted, 
but.
    Mr. Green. OK. Thank you, Mr. Chairman.
    Mr. Upton. Mr. Griffith?
    Mr. Griffith. Thank you, Mr. Chairman.
    Dr. Hildebrandt, Mr. Shimkus asked some questions earlier 
of Mr. Allen and Ms. Sidhom, and you heard their answers. In 
particular, Ms. Sidhom said if there were real problems on 
where their profit comes from, if it was negatively impacting 
consumers that you would be all over them. So I am going to 
give you a chance after you have heard their answers, what say 
you?
    Dr. Hildebrandt. Well, we are calling for this, and 
actually the independent market monitor in PJM has been doing 
this for 3 years. So the market monitors whose job, who have 
the data and the information, whose job it is to look at these 
kind of things, in fact, are calling this out and providing the 
kind of analysis we are providing that is showing, you know, 
ratepayers are getting only a fraction of the dollars back from 
the FTR auction that they would otherwise get. So we are here. 
That is why I am here today.
    Mr. Griffith. What I am hearing from these folks, and I 
don't know a lot about this product so I am not taking sides, 
but what I am hearing is most everybody seems to think that 
this in the end makes sure the consumers have power and that 
they are getting a fair deal because these folks are making it 
more efficient.
    And all they are doing from what I gather in interpreting 
their statements all they are doing in most cases is taking a 
portion of the savings that go to the consumers and that is 
where they make their profit by figuring out how to make the 
system more efficient. Do you disagree?
    Dr. Hildebrandt. Yes, I absolutely disagree. Part of the 
issue here, we have two very different products being discussed 
here today. There is the virtual trading and I believe the 
benefits that Ms. Sidhom cited, I believe, is somebody's 
estimate of what virtual trading may have saved. That is very 
different.
    Virtual trading is our trades between willing buyers and 
sellers. When the ISO clears the virtual that is cleared as 
part of an energy market which is a market between willing 
buyers and sellers. In that kind of market there can be value 
from that. However, in the FTR it is a very different product. 
It is an auction. It is not an actual market. They are 
auctioning these things off for 50 cents on the dollar.
    In terms of the congestion revenues they are not providing 
any value in terms of, you know, they are siphoning off money 
which I think otherwise could be used to offset the costs of 
investments in the physical system, physical generating plants 
and physical infrastructure. So I think in that sense they are 
siphoning money out of the system without increasing efficiency 
in a way that ultimately can hurt reliability because it, you 
know, it does decrease, you know, kind of the money that can be 
used to improve the transmission system at a reasonable price 
to consumers.
    Mr. Griffith. So what do you think we should do to solve 
the problem as you see it?
    Dr. Hildebrandt. Well, as I have said, I think we continue 
with the allocation of FTRs to load-serving entities. That 
includes direct access customers who, you know, are buying 
power through retail choice. But then stop the practice of 
having ISOs auction off FTRs backed by congestion revenues that 
otherwise go to load-serving entities. Stop that auction.
    I think at that point my position is I think ICE, you know, 
you heard the gentleman describe how ICE it is a private 
company exchange. They provide long-term contracts for gas, for 
energy. You know, let the markets work. Again these gentlemen, 
Mr. Allen and Mr. Moser can deal through ICE or bilaterally as 
far as selling a hedge at the appropriate price. That is what 
they are good at.
    If policymakers really think ISOs, that the free markets 
can't work there and ISOs need to step in, then do that through 
an FTR market that only clears bids from willing buyers and 
sellers, so only if load-serving entity bid into that market to 
sell a hedge would they be exposed to having to sell an FTR.
    Mr. Griffith. All right. Now the dilemma that we have is we 
only get 5 minutes for questions. Mr. Allen, do you want to 
respond to any of the comments that were made? I probably won't 
have time for you, Ms. Sidhom, to get back in, but maybe 
somebody else will give you a minute.
    Mr. Allen. I am glad we agree the virtuals are good. As far 
as the other stuff what I would advise, there are many market 
monitors throughout the country. Not all of them agree with the 
position that Dr. Hildebrandt has. Any as sort of analysis that 
FERC or you guys see about the value or the lack of value of 
FTRs coming from one market monitor or another, all I ask have 
it peer-reviewed. There needs to be some sort of peer review of 
anybody's analysis so that, you know, and market monitors have 
a tremendous amount of power and their analysis should be peer-
reviewed. Thank you.
    Mr. Griffith. And I guess you all can appreciate that this 
is not our field or at least most of us up here, and we are 
just trying to get the facts to make sure the American 
consumers are getting the best deal that they can get. And with 
that I yield back.
    Mr. Upton. Mr. Johnson?
    Mr. Johnson. Thank you, Mr. Chairman. I appreciate the 
opportunity. And thank the panel for being here this morning. 
You know, the FERC chairman, Neil Chatterjee, recently stated 
that one of the FERC's top priorities moving forward will deal 
with de novo reviews. As I am sure some of you are aware, the 
majority of the current court cases surrounding FERC's 
interpretation have gone on for years.
    Mr. Allen, do you have any thoughts on how FERC should 
address this?
    Mr. Allen. I would think that something along those lines, 
de novo review, is probably best left to the courts to decide. 
It is not, you know, I am not a lawyer, I am not, so I really 
can't offer you a good opinion on it other than I think it is 
probably, you know, let the courts figure it out.
    Mr. Johnson. OK. Ms. Sidhom, do you have any thoughts?
    Ms. Sidhom. Absolutely. And I think that Chairman 
Chatterjee addressed that issue because FERC has lost on it 
multiple times in court now. We all want a robust enforcement 
program. That is really important for us. We need a cop on the 
beat. Nobody wants to participate in a market that is not being 
heavily policed, especially such a volatile market.
    So, but what we really want is an efficient enforcement 
process and I think that the courts are making the absolute 
right decision on de novo review.
    Mr. Johnson. OK, all right. Now maybe some of this has 
already been covered so I apologize if you feel we are being 
redundant here. But we have heard from Dr. Hildebrandt 
regarding his thoughts on FTRs. Mr. Duane, what are your 
thoughts? Do you have any?
    Mr. Duane. You know, I think he is asking a question that 
is a legitimate question to ask. I think it is always the right 
question to ask, because at the end of the day as I said 
several times here this morning, and I don't mean this to 
disparage the financial participants, but they are there to 
serve a purpose and that is to make sure that the physical 
participants and, in particular, the consumer at the end of the 
day are getting the best deal possible out of these markets. 
That is what the fundamental design mission is.
    And I think they can bring that benefit, but it has to be 
scrutinized. So the questions about the design of the market, 
they get pretty arcane when you are looking at the allocation 
of FTR revenues and I honestly don't think I can add anymore to 
that.
    But the litmus I kind of use is if I see real risk 
management, if I see someone speculating and taking risk off 
the table, if I see them hedging, those are good types of 
financial transactions and people should be entitled to earn a 
return for providing those services and customers who pay a 
premium to get that insurance should feel comfortable about 
that.
    Where I get more concerned is where there is arbitrage 
which should bring convergence among prices, but I don't see it 
actually happening. And that is really where I am coming from 
at PJM is a concern that at that point we do have a siphoning 
problem, we do have a hole in the bucket. I think FERC can 
separate the babies with the bath water and we can put in place 
rules to do that.
    As far as the FTR market goes, I am just not at a point to 
say that is an example of one of those types of problems.
    Mr. Johnson. OK. Mr. Shimkus began to address this as well. 
Monitoring Analytics, the independent market monitor for PJM, 
found in the most recent State of the Market Report that--and I 
quote. It is not clear in a competitive market why financial 
transmission right purchases by financial entities remain 
persistently profitable. In a competitive market it would be 
expected that profits would be competed away.
    Do you agree with this statement, and if not, why not?
    Mr. Duane. No, I do agree with that statement. I am not 
sure it is a fair characterization of what is going on in PJM 
but, theoretically, yes, a competitive market should show over 
time a balance. And if there is a persistent asymmetry and what 
I think our market monitor is saying is that his observation 
over a period of time is that there is a persistent asymmetry 
and FTR traders have made money rather consistently.
    I am not sure factually that is correct and I would want to 
look into that further, but if that is correct it is the kind 
of yellow flag that says maybe there is something structural in 
this complex market design that needs to be examined so that we 
do have a more symmetrical outcome.
    Mr. Johnson. OK, all right.
    Thank you, Mr. Chairman. I yield back.
    Mr. Upton. The Chair would recognize Mr. Flores.
    Mr. Flores. Thank you, Mr. Chair. And I appreciate this 
hearing and appreciate the witnesses participating today. It 
has been very informative.
    One of the principal reasons we have hearings like this is 
so that we as policymakers can determine how involved we should 
be or not be in terms of trying to make sure that these markets 
work correctly. So my first question is this. What potential 
market regulatory reforms should Congress and FERC be 
considering in order to improve market benefits associated with 
financial trading?
    So I would start with Ms. Sidhom. Can you share your 
thoughts? And try to do it quickly if you can.
    Ms. Sidhom. Yes, absolutely. We need long-term auctions 
just like you guys mandated in the Energy Policy Act of 2005. 
Those are integral to provide a forward price signal.
    I also kind of want to address just a few comments that Mr. 
Hildebrandt made. California just put out a report negating a 
lot of the things that he said about FTRs, so its own ISO is 
not in agreement with him. They specifically say there are 
market design issues that they need to fix. So one of the 
reforms we really need is better outage scheduling and I touch 
on that in my testimony.
    So, essentially, if I am a transmission owner and I don't 
plan out my outage, I should have to pay the costs that are 
incurred to the system for not planning out that outage. And 
New York employs that very practice and they save a lot of 
money. They have very few unplanned outages. That and 
technology reform, I think, really needs to occur.
    I mean we have certain ISOs where some of their modules 
don't even work with like Chrome. They work with Internet 
Explorer but old versions of it, like we are really behind in 
technology.
    Mr. Flores. OK. Mr. Allen?
    Mr. Allen. Real-time congestion hedge like exists in ERCOT, 
I would love to see that. We need to see that. It is necessary. 
It is essential for retail competition.
    Mr. Flores. OK. Mr. Moser?
    Mr. Moser. I would say there is plenty of things on the 
FERC docket already in terms of the different price formation 
dockets that they have been sitting on for years that we could 
move forward with immediately, some of the minimum offer price 
rules and et cetera. So there is plenty of stuff for them to 
do.
    Mr. Flores. OK. I would ask you to supplementally follow up 
and tell me what the top three or four are, if you would.
    Mr. Allen. Happy to.
    Mr. Flores. Mr. Allen, also in your testimony you stated 
that competitive markets should be allowed to operate with 
minimal Government intervention such as out-of-market 
subsidies. If that intervention occurs, how is financial 
trading affected and do you have any recent examples?
    Mr. Allen. If you have an out-of-market payment going to a 
certain class of generation assets it will distort market 
outcomes.
    Mr. Flores. Sure.
    Mr. Allen. I think what is important is if there are 
certain externalities that are not being looked at that aren't 
being valued, whether it is carbon or reliability or so forth, 
I would ask that they be placed into the market so the market 
can respond to it and you don't distort market outcomes.
    Mr. Flores. OK.
    Mr. Minzner, in terms of enforcement of financial trading 
you stated that financial markets inevitably move much faster 
than regulators. I think we all know that about this town. Is 
there anything Congress can do to ensure that FERC can remain 
nimble and to be able to evaluate new offerings of increasingly 
complex financial products?
    Mr. Minzner. So I think that is a great question, 
Congressman. I think largely it has been a success. I think 
Congress has, when problems have arisen in the energy markets, 
taken appropriate action--EPAct 2005 is a classic example of 
that--but also left it to the agency recognizing the complexity 
of these markets to adjust them as necessary as new products 
have developed.
    It is not just that the markets are complex. They differ 
regionally. As you have heard, PJM is quite different from 
California and they are both very different from Texas. That 
has been a model that I think has been largely successful, but 
I really do think it is up to the agency to be constantly be 
reevaluating the structure of the market and the products that 
are available.
    Mr. Flores. Thank you, Mr. Chairman. I am going to yield 
back a minute to you.
    Mr. Upton. The Chair would recognize Mr. Barton.
    Mr. Barton. Thank you, Mr. Chairman, and you and Mr. Rush 
for this hearing.
    I have not really followed the electricity markets for a 
number of years, so I am trying to get my hands around what a 
virtual transaction is. I don't know who to ask, I guess Mr. 
Moser. Are these transactions that are called virtual 
transactions, are they in and out the same day transactions?
    Mr. Moser. Yes. To the extent that the ISOs, if you put 
aside the FTR auctions, are running simply a day-ahead auction 
for power delivery tomorrow, then what the virtual transactions 
do is allow--so when I offer my plants in, you know, we will 
take Joliet 6 and we will say it is a $35 unit and we will 
offer that in to PJM in the market, and then if PJM needs $35 
or higher power at that point I will get a commitment that I 
then have to run to for the next day and I will get paid 35 for 
it.
    Mr. Barton. Well, that sounds like a real transaction.
    Mr. Moser. That is a real transaction. But a virtual 
transaction would be if, you know, if a financial participant 
put in an offer at 35 and it looks just like generation in 
terms of going into the stack, it can get chosen and then 
basically what they have done is they have sold 35 in the day-
ahead market. They are going to get $35 times however many 
hours times however many megawatts, and then when they don't 
deliver anything the next day because it is virtual--and this 
doesn't come as a surprise to the ISOs. The ISOs know what is 
virtual and what is real--then that settles against whatever 
the real-time price is.
    So they basically have, they get paid 35 and then they are 
going to pay back to the ISO whatever the real-time average is 
for those same megawatts for that same timeframe, and it may be 
plus and it may be minus.
    Mr. Barton. So they have to deliver but they don't have to 
produce; is that----
    Mr. Moser. Well, in effect, they are taking the financial 
obligation of delivering, you know, no one expects virtuals to 
deliver so make no mistake there. There is no chicanery there. 
But they are basically a way of taking a position day-ahead 
against the real-time sell.
    Mr. Barton. But when a financial participant sells power at 
$35 a megawatt hour----
    Mr. Moser. Day-ahead.
    Mr. Barton [continuing]. For tomorrow delivery----
    Mr. Moser. Yes.
    Mr. Barton [continuing]. Sometime that day, do they take a 
position where they go in and buy, get a commitment to provide 
that power tomorrow at a lower price?
    Mr. Moser. Well, they may have, they may be doing that 
because they have a longer term position on that the ISO is not 
aware of. But generally speaking and in its simplest form, they 
have said I am willing to sell $35 power because I think the 
price tomorrow is going to be less than that and they are 
willing to take that risk on what that is for tomorrow's price.
    Mr. Barton. I guess the gentleman from California who kind 
of monitors this, are these virtual transactions helpful or 
hurtful to the real-time delivery of power and the pricing of 
power? You know, because California as we remember--some of us 
old-timers--10 or 15 years ago, you had the perfect market, you 
thought, and it all went to pot.
    Dr. Hildebrandt. OK. Well, our market is working pretty 
well now, I think, Ms. Sidhom's comments notwithstanding. And 
so, you know, again you really need to differentiate. I have 
been talking today about financial transmission rights so, but 
you are asking me then about virtual.
    Mr. Barton. I am just trying to understand.
    Dr. Hildebrandt. Sure.
    Mr. Barton. Because I don't think the public understands 
it.
    Dr. Hildebrandt. We have them in our market. We think they 
can be beneficial to help kind of to help converge the day-
ahead and real-time prices especially when you have a lot of 
renewables, so they can be beneficial. Unfortunately, they can 
be used also to manipulate the market. We have had cases like 
that. And specifically, you know, there are now cases, public 
cases, where that virtual trades have been used to manipulate 
prices that then increase payments that entities who have 
boughten firm transmission rights have.
    So there is again have been some issues with cross-market 
manipulation. If you stop the auctioning of the firm 
transmission rights, I think then that would remove the issue 
of cross-market manipulation between the virtual bidding, which 
we are not proposing to get rid of in California, and can add 
value and again is based on bids from willing buyers and 
sellers as opposed to the firm transmission rights which are 
distinctly different.
    Mr. Barton. OK. Mr. Chairman, my time has expired. Thank 
you for the courtesy of allowing me to ask them.
    Mr. Upton. Yes. With that if no other Members have further 
questions we will adjourn. Thank you very much.
    Oh, and we are going to put something in the record. I am 
going to ask unanimous consent to put in a letter from 
Monitoring Analytics into the record.
    [The information appears at the conclusion of the hearing.]
    Mr. Upton. And with that, we stand adjourned. Thank you. 
Thank you.
    [Whereupon, at 11:53 a.m., the subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]

                 Prepared statement of Hon. Greg Walden

    This is the eighth hearing in our committee's ongoing 
Powering America series. Today, we will explore the effects of 
financial trading in the Nation's wholesale electricity 
markets. I look forward to hearing from our panel of witnesses 
to better understand how financial transactions can improve the 
efficiency of the energy markets, as well as efforts to protect 
consumers from improper trading activity in energy markets.
    Electricity is intrinsically different than other 
commodities, as electricity is produced and consumed instantly. 
Although energy storage technology is becoming more 
economically feasible, it is not yet cost-competitive at a 
utility scale. The inability to store electricity means supply 
and demand must constantly be balanced in real time. In turn, 
the instantaneous nature of electricity delivery and 
consumption can result in volatile energy prices.
    Generators and load serving utilities can protect against 
price volatility by fixing the price of electricity for 
delivery at a future date by using various financial 
instruments such as a Financial Transmission Right (FTR). 
Today's hearing gives us the opportunity to learn more about 
how these FTRs and other virtual financial transactions fit 
into today's electricity markets.
    Financial trading within electricity markets is complex and 
highly technical in nature. These financial products can 
improve the efficiency of electricity markets by increasing 
liquidity, mitigating market power, and improving the formation 
of energy prices, all of which can result in low-cost 
electricity for consumers.
    We must balance these benefits against a history that 
includes bad actors who have utilized complicated trading 
strategies to engage in manipulation schemes in these energy 
markets. As I have said many times before, the American 
consumer always comes first. Consumers have come to expect 
competitive and efficient electricity markets that deliver 
affordable and reliable power.

             Prepared statement of Hon. Frank Pallone, Jr.

    Today we are examining the role financial trading plays in 
our Nation's electricity markets. This is a fairly technical, 
yet important aspect of the management of energy delivery, and 
it is certainly worthy of greater scrutiny.
    Under the Federal Power Act, the Federal Energy Regulatory 
Commission, known as FERC, oversees electricity markets and the 
physical and virtual products traded within them. FERC 
specifically authorizes energy market participants' physical 
and virtual trading under tariff-based rules and protocols.
    Financial tools, which include things like derivatives and 
financial transmission rights, can play a positive role in 
electricity markets. They do this by providing liquidity, by 
helping participants to hedge risk associated with a volatile 
commodity and by mitigating market power distortions. This 
makes for a more efficient market and, ideally, lower prices 
for consumers.
    However, financial instruments can also create 
opportunities for bad actors to engage in market manipulation -
and that is something that has been and continues to be of 
concern to me. I am particularly concerned about large banks 
and financial institutions that participate in the market 
purely to seek profit. Some of the biggest market manipulation 
cases taken by FERC involve big banks like JP Morgan Chase, 
which agreed to a $410 million settlement in 2013. Similarly, 
Barclays recently settled a market manipulation action brought 
by FERC for $105 million, and no longer engages in any trading 
transactions.
    Electricity is a commodity unlike any other, both in 
physical terms and in terms of its importance to our everyday 
lives. While I do understand the benefits these financial tools 
can provide consumers, producers and transmitters of 
electricity, I remain skeptical of the role that pure traders 
and big banks play in this market. At a minimum, we must have 
strong standards and vigorous enforcement against market 
manipulation to ensure reasonable rates for consumers.
    I want to thank our witnesses for participating today and 
yield the balance of my time.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 <all>
</pre></body></html>
